         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

Implementation of the Department of
Energy's Beryllium-Associated
Worker Registry




DOE/IG-0726                            April 2006
REPORT ON IMPLEMENTATION OF THE DEPARTMENT OF
ENERGY'S BERYLLIUM-ASSOCIATED WORKER REGISTRY


TABLE OF
CONTENTS


  Implementation of Beryllium Registry

  Details of Finding                            1

  Recommendations and Comments                  4


  Appendices

   1. Objective, Scope, and Methodology         6

   2. Prior Audit Report                        9

   3. Management Comments                       10
Implementation of Beryllium Registry

Maintenance and     The data in the Department of Energy's (Department) Beryllium-
Use of Registry     Associated Worker Registry (Registry) was neither complete nor
                    fully accurate. Further, the Department had not used the Registry
                    to evaluate health effects of beryllium exposure or the prevalence
                    of beryllium disease, two of the objectives of the Chronic
                    Beryllium Disease Prevention Program (Prevention Program).

                                       Complete and Accurate Data

                    The Department had not maintained the Registry to ensure the
                    data's completeness and accuracy. Specifically, the Registry did
                    not contain data from all of the Department's sites falling under the
                    reporting requirement, nor had all of the required data fields been
                    populated. In addition, many of the records in the Registry were
                    inaccurate.

                    Completeness

                    The Registry did not contain data from all of the Department's sites
                    falling under the reporting requirements. Currently, 20 of the
                    Department's sites have submitted data to the Registry. While the
                    scope of audit focused primarily on the completeness of the data
                    within the Registry, we identified additional sites that had not
                    reported any relevant data to the Registry. Specifically, two of the
                    Department's closure sites, Fernald and Miamisburg, had not
                    reported any data to the Registry despite the potential for beryllium
                    exposure based on legacy Department operations at those sites.
                    Further, available records document the existence of beryllium-
                    associated workers at Miamisburg. Also, there was evidence of
                    Chronic Beryllium Disease at the Department's two leased gaseous
                    diffusion plants at Paducah and Portsmouth; however, none of this
                    information was reported to the Registry. A prior Office of
                    Inspector General (OIG) report (OAS-L-05-08, June 2005),
                    referenced concerns that the Department needed to determine the
                    extent to which the Prevention Program was applicable to Paducah
                    and Portsmouth. At the time, the Department informed the OIG
                    that it recognized these issues and had initiated action to address
                    these concerns.

                    In addition, not all of the required data fields in the Registry were
                    populated. We reviewed the records from the Kansas City Plant
                    (Kansas City), Los Alamos National Laboratory (Los Alamos),
                    Pantex Plant (Pantex), Y-12 National Security Complex (Y-12),
                    and Rocky Flats Closure Project (Rocky Flats), and found required
                    data fields that were unpopulated for all of the sites. For example,
                    none of the records tested for Kansas City, Pantex, or Rocky Flats



Page 1                                                              Details of Finding
         indicated whether respirator protection was used. In addition,
         medical data was missing for all of the worker records tested for
         Rocky Flats, as well as 20 of the 29 records tested for Los Alamos.
         Both respiratory protection and medical data are essential if the
         Office of Environment, Safety and Health (EH) is to provide
         complete and meaningful analyses of beryllium related issues. For
         instance, trend and correlation analysis cannot be made between
         exposure data, including the use of respiratory protection, and
         medical results, if data is missing from either of the fields.

         Accuracy

         Not all of the data reported in the Registry was accurate. We
         reviewed the records for Los Alamos, Pantex, and Y-12, and all
         had required data fields containing inaccurate data. For example at
         Y-12, 18 exposure records included data relating to the protective
         use of a respirator. However, the same set of records in another
         data field contained conflicting and irreconcilable information.
         Also, 26 records for individual workers at Pantex had a work
         termination date of January 1900, obviously prior to the workers'
         dates of birth. These exceptions were brought to the attention of
         representatives from both sites and we were told that efforts were
         being made to take corrective action. It is vital for EH to ensure
         the accuracy of these records, since each record is critical to
         tracking the beryllium work history and performing the analyses
         needed to mitigate further beryllium exposure.

         In addition, duplicate records were found in the Registry for four
         sites reviewed: Y-12, Rocky Flats, Los Alamos, and Pantex. In
         fact, since the implementation date of January 7, 2002, one Rocky
         Flats exposure record was repeated 192 times in the Registry. For
         the same period at Pantex, 386 of the 1,805 work history records
         were identified in multiple sets, including one record that occurred
         40 times.

                                  Use of the Registry

         Though the Registry was implemented several years ago, EH had
         not used it for at least one of its intended purposes, an occupational
         health research tool to determine the prevalence of disease and to
         document health effects associated with beryllium exposures. In
         fact, in the past four years EH had not generated any reports using
         the data from the Registry. EH is currently in the process of
         developing such a relevant health report; however, its usefulness
         may be limited given the questions that have been raised regarding
         Registry data quality.



Page 2                                                    Details of Finding
Data Conversion    Despite the fact that the Prevention Program was a Department
and Programmatic   priority, not all Department sites, including closure sites and
Oversight          leased facilities, had determined the extent to which the Registry
                   reporting requirements were applicable to them. Further, the sites
                   that had submitted data to the Registry had not corrected known
                   data errors and EH had not followed up with Department program
                   offices to ensure that the sites complied. Finally, EH had not
                   established an implementation plan that included identifying the
                   specific analyses, supporting data, and reports needed to use the
                   Registry as an effective occupational health research tool.
                   Consequently, the Registry effort had not resulted in the generation
                   of a single report to assist the Department in its worker health and
                   safety program.

                   Responsible EH officials indicated that they were aware of data
                   errors in the Registry and that they had directly contacted some of
                   the sites, such as Rocky Flats, about the sites' errors. However, we
                   found that EH had not followed up with the appropriate program
                   offices to ensure that the data errors submitted by field sites had
                   been corrected. The Department worked with the Oak Ridge
                   Institute for Science and Education (ORISE) to establish the
                   Registry. As part of its responsibility, ORISE performed logic
                   checks on the data received from each site to validate its
                   credibility. Details of data errors identified in the submissions
                   were provided by ORISE in writing to the reporting sites and to
                   EH. However, EH did not have a comprehensive program in place
                   to follow up with the Department program offices to ensure site
                   compliance with Registry protocols.

                   In addition, EH did not have an implementation plan to ensure that
                   the Registry was useful as an occupational health research tool.
                   One of EH's performance measures was to maintain the Registry to
                   determine the prevalence of beryllium disease and document the
                   progression of health effects associated with beryllium exposure.
                   However, EH had not designed an implementation plan that
                   identified the frequency and type of analyses, the specific
                   information needed to conduct such analyses, or the method of
                   reporting results to the sites. The Department recently
                   incorporated its Beryllium-Associated Worker Registry Data
                   Collection and Management Guidance into a Department
                   Technical Standard effective January 2006. However, the
                   Technical Standard did not directly address the areas of concern
                   noted above, nor was the use of the Technical Standard mandatory.




Page 3                                                            Details of Finding
Ensuring Worker     The 2003-2006 Strategic Plan for EH states that maintaining the
Health and Safety   Registry to determine the prevalence of disease and document the
                    progression of health effects associated with beryllium exposures
                    is important to ensuring the safety and health of the workers at
                    Department facilities. As a result of not being able to make full
                    use of the Registry, four years of data had not been analyzed, data
                    that may have assisted the Department in assuring the safety and
                    health of its workforce.


RECOMMENDATIONS     We recommend that the Assistant Secretary for Environment,
                    Safety and Health direct the Office of Epidemiology and Health
                    Surveillance to:

                         1. Work with the appropriate Departmental program offices
                            in order to ensure that sites:

                                    a. Identify whether they are required to report to
                                       the Registry; and,

                                    b. Correct existing errors and omissions.

                         2. Establish procedures to ensure that subsequent
                            corrections are made in a timely and accurate manner.

                         3. Revise the Department's current Technical Standard to
                            incorporate language pertaining to the Registry that
                            defines the following:

                                    a. Analyses and trends to be completed, including
                                       the required relevant data to complete the
                                       analyses; and,

                                    b. Methods of summarizing and reporting the data
                                       to the sites.

                         4. Work with Departmental program offices and sites to
                            adopt the revised Technical Standard in the sites'
                            individual Chronic Beryllium Disease Prevention
                            Programs.


MANAGEMENT          Management concurred with the findings and recommendations,
REACTION            with the exception of recommendation number four. In a draft of
                    this report, we had recommended that management pursue making
                    the revised Technical Standard mandatory for sites that are



Page 4                                          Recommendations and Comments
           required to report to the Registry. Instead, management proposed
           an acceptable alternative by suggesting that EH will work with
           Departmental program offices and sites to adopt the revised
           Technical Standard in the sites' individual Chronic Beryllium
           Disease Prevention Programs. EH stated that this will make the
           Technical Standard enforceable and mandatory under a new
           Worker Safety and Health Program Rule being pursued by EH.
           This will also allow EH the flexibility to change the Technical
           Standard as needed to respond to changing conditions and events.

           In response to the other recommendations, management indicated
           that EH will become proactive in working with the appropriate
           Departmental program and Field Offices in the attempt to identify
           sites needing to report to the Registry as well as correct existing
           Registry errors and omissions. EH also intends to establish
           procedures to ensure that subsequent corrections are made in a
           timely and accurate manner. In addition, EH will analyze and
           report on the Registry data through the implementation of analysis
           and data reporting plans, with the presentation of the findings at
           annual scientific meetings. Management also stated that since the
           completion of this audit, EH had completed the first report on the
           prevalence of beryllium sensitization and Chronic Beryllium
           Disease, including exposure information, based on data submitted
           to the Registry.


AUDITOR    Management's comments are responsive to our recommendations
COMMENTS   and its actions, when fully implemented, should improve the
           Department's ability to use the Registry as an effective
           occupational health research tool. We agreed with management’s
           proposed modification to recommendation number four and we
           have revised the report accordingly. Management's comments are
           included in their entirety in Appendix 3.




Page 5                                                            Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department had established, maintained and effectively used the
              Registry to evaluate worker health effects associated with
              beryllium exposure.


SCOPE         The audit was performed between June and December 2005, at the
              Oak Ridge Institute for Science and Education (ORISE) and the
              Y-12 National Security Complex (Y-12), both located in Oak
              Ridge, Tennessee. Testing procedures were performed on the data
              from Kansas City Plant, Kansas City, Missouri; Los Alamos
              National Laboratory (Los Alamos), Los Alamos, New Mexico;
              Pantex Plant (Pantex), Amarillo, Texas; and, Rocky Flats Closure
              Project, Golden, Colorado.

              We also conducted interviews and obtained information relating to
              other sites in the Department:

                •   Brookhaven National Laboratory, Upton, New York;
                •   Fernald Closure Project near Ross, Ohio;
                •   Hanford Site, Richland, Washington;
                •   Knolls Atomic Power Laboratory, Niskayuna, New York;
                •   Lawrence Berkeley National Laboratory, Berkeley,
                    California;
                •   Miamisburg Closure Project, Miamisburg, Ohio;
                •   Oak Ridge National Laboratory; Oak Ridge, Tennessee;
                •   Oak Ridge Operations Office, Oak Ridge, Tennessee;
                •   Paducah Gaseous Diffusion Plant, Paducah, Kentucky;
                •   Portsmouth Gaseous Diffusion Plant, Piketon, Ohio;
                •   Southwestern Power Administration, Tulsa, Oklahoma; and,
                •   Stanford Linear Accelerator Center, Menlo Park, California.

              The audit covered the Office of Environment, Safety and Health's
              (EH) efforts to meet the Chronic Beryllium Disease Prevention
              Program's goal of determining the prevalence of disease and health
              effects associated with beryllium exposure.


METHODOLOGY   To accomplish the audit objective, we:
                    •   Reviewed laws, regulations, policies, procedures, and
                        contract requirements relevant to the Department's
                        Registry;




Page 6                                   Objective, Scope, and Methodology
Appendix 1 (continued)

                         •   Held discussions with officials from EH, ORISE, and
                             Department sites;

                         •   Obtained and reviewed site-specific Registry data from
                             both ORISE and Department site offices;

                         •   Selected a judgmental sample of five of the twenty
                             Department sites reporting Registry data to determine if
                             the records were complete. These sites were selected
                             based on analysis of the sites with a Prevention Program;
                             the sites currently reporting to the Registry; and, the sites
                             with reported beryllium operations. The completeness
                             test was performed on the reported beryllium activities
                             beginning January 7, 2002, and ending July 2005; and,

                         •   Selected 30 records from Los Alamos, Pantex, and Y-12,
                             respectively, to determine if the records were accurate.
                             This encompassed testing whether the 1) information
                             contained in the required data fields in the Registry was
                             factually accurate in comparison to the information
                             maintained at the individual Department sites that report
                             to the Registry, and 2) existing data was reliable.

                    The audit was performed in accordance with generally accepted
                    Government auditing standards for performance audits and
                    included tests of internal controls and compliance with laws and
                    regulations to the extent necessary to satisfy the audit objective.
                    Because our review was limited, it would not necessarily have
                    disclosed all internal control deficiencies that may have existed at
                    the time of our audit.

                    We reviewed and assessed performance measures in accordance
                    with the Government Performance and Results Act of 1993 and
                    concluded that EH had established a performance measure to
                    maintain the Registry, but that the metric had not been met. In
                    order to meet that performance measure, we included
                    recommendations for EH to work with the appropriate program
                    offices to ensure that sites meet the Registry requirements, and to
                    update the current Technical Standard to include the methods of
                    analyzing data in the Registry and summarizing and reporting the
                    results to the sites.

                    We relied on computer-processed data to accomplish our audit
                    objective. Our procedures included gaining an understanding of
                    the process for inputting information into the sites' databases and
                    incorporating it into the Registry at ORISE, as well as the security
                    access to the Registry to determine if the data was sufficiently


Page 7                                          Objective, Scope, and Methodology
Appendix 1 (continued)

                    reliable. Based on this, we decided to perform additional tests of
                    Registry data to accomplish our objective. Various computer
                    assisted audit tools were used to perform queries and testing of the
                    databases received from both ORISE and the Department sites.
                    The completeness and accuracy of the data is addressed in the
                    body of the report.

                    Management waived an exit conference.




Page 8                                         Objective, Scope, and Methodology
Appendix 2

                                    Prior Audit Report

  •   Occupational Safety and Health - Government Responses to Beryllium Uses and Risks
      (GAO/OCG-00-6, May 2000). The Government Accountability Office (GAO) was asked
      to obtain information on beryllium as a hazardous material and report on the health and
      safety controls over its use. GAO found that from the 1960s to the 1990s, the
      Department of Energy had taken action to assess and to respond to risks associated with
      exposure to beryllium. Specifically, the Department improved working conditions at its
      facilities and implemented medical testing for its current and former workers during the
      1980s and 1990s after new cases of Chronic Beryllium Disease were identified during the
      1980s. From 1984 through 1999, 149 Department workers had been diagnosed with
      definite or possible Chronic Beryllium Disease. In 1999, the Department issued a rule
      that established new worker safety controls, such as increased use of respirators and
      assessing hazards associated with work tasks, for its facilities that use beryllium. The
      Department also proposed a compensation program for its workers affected by Chronic
      Beryllium Disease, which had been introduced as legislation in the Congress.




Page 9                                                                   Prior Audit Report
Appendix 3




Page 10      Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
                                                                    IG Report No. DOE/IG-0726

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
